No. ___-______
__________________________
IN THE
SUPREME COURT OF THE UNITED STATES
__________________________
JAMES ATWOOD, Petitioner,
vs.
UNITED STATES OF AMERICA, Respondent.
__________________________
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the Seventh Circuit
__________________________
APPENDIX
__________________________
Appendix A: Decision of the Court of Appeals (unpublished order)
United States v. Atwood, No. 20-2794 (7th Cir. Apr. 30, 2021) ............. 1a
Appendix B: Decision of the District Court (excerpt of sentencing transcript)
United States v. Atwood, No. 2:16-cr-20043 (C.D. Ill. Sept. 8, 2020) .... 3a
Appendix C: Indirectly Related Decision of the Court of Appeals
United States v. Ruth, 966 F.3d 642 (7th Cir. 2020), cert. denied,
141 S. Ct. 1239 (Jan. 19, 2021) ............................................................. 13a

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted April 29, 2021
Decided April 30, 2021
Before
MICHAEL Y. SCUDDER, Circuit Judge
AMY J. ST. EVE, Circuit Judge
THOMAS L. KIRSCH II, Circuit Judge
No. 20-2794
Appeal from the United States District Court
for the Central District of Illinois.

UNITED STATES OF AMERICA.,
Plaintiff-Appellee,

No. 16-cr-20043-001
v.
Sara Darrow,
Chief Judge.

JAMES ATWOOD,
Defendant-Appellant.

ORDER
James Atwood pleaded guilty to conspiring to distribute and distributing cocaine,
and using a communication facility to facilitate a drug transaction. See 21 U.S.C. §§ 841,
843, 846. The district court ruled that his two prior Illinois convictions for delivery of a
controlled substance, 712 ILL. COMP. STAT. 770/401(a)(2), (c)(2), involved a “controlled
substance” under the Sentencing Guidelines and thus increased his sentencing range.
See U.S.S.G. § 2K2.1(a)(4)(A). On appeal Atwood argues that Illinois’s cocaine-trafficking
law is broader than the federal definition, so it should not count as a “controlled substance”
offense under the Guidelines.

001a

No. 20-2794

Page 2

Atwood’s arguments are foreclosed by our recent decisions in United States v.
Ruth, 966 F.3d 642 (7th Cir. 2020), and United States v. Wallace, 991 F.3d 810 (7th Cir.
2021). In Ruth we rejected the argument (like Atwood’s here) that the term “controlled
substance” as defined in U.S.S.G. § 4B1.2(b) refers only to a substance banned by the
federal Controlled Substances Act, 21 U.S.C. § 802(6). The defendant there argued that
because the Illinois statute prohibits distribution of “positional isomers” of cocaine and the
Controlled Substances Act does not, a conviction under the Illinois statute does not involve
a “controlled substance” under § 4B1.2(b) and thus cannot be used to increase the
sentencing range under § 2K2.1(a)(4)(A). We disagreed, explaining that the Guidelines’ use
of the term “controlled substance” broadly refers to the ordinary meaning of that term—not
just to the federal Controlled Substances Act—and that the ordinary meaning includes
Illinois’s definition. Ruth, 966 F.3d at 654.
In United States v. Wallace, 991 F.3d 810 (7th Cir. 2021), we were urged to revisit and
overrule Ruth. We declined to do so. Id. at 817. Alternatively, we were asked to hold that the
Illinois statute is broader than Ruth’s ordinary-meaning definition of “controlled substance”
because positional isomers of cocaine are not psychoactive. We rejected this argument too,
noting that Ruth itself involved the Illinois statute and that positional isomers of cocaine “fit
the natural meaning of ‘controlled substance.’” Id. We also declined the defendant’s
invitation to “speculate about whether [positional isomers of cocaine] alter behavior.” Id.

Atwood raises the same arguments we rejected in Ruth and Wallace (and no
others). We therefore summarily AFFIRM the judgment.

002a

1
1

UNITED STATES DISTRICT COURT

2

CENTRAL DISTRICT OF ILLINOIS

3
4
UNITED STATES OF AMERICA,
5
Plaintiff,
6
vs.
7
JAMES ATWOOD,
8
Defendant.

)
)
)
)
)
)
)
)
)

Criminal No. 2:16-20043

9
10
11
12

TRANSCRIPT OF PROCEEDINGS
BEFORE THE HONORABLE SARA DARROW
RE-SENTENCING HEARING
SEPTEMBER 8, 2020; 10:06 A.M.
DAVENPORT, IOWA

13
APPEARANCES:
14
15

For the Government:

BRYAN DAVID FRERES, ESQUIRE
Asst. United States Attorney
201 S. Vine Street
Urbana, Illinois 61802
(217) 373-5875

For the Defendant:

MURRAY W. BELL, ESQUIRE
Murray W. Bell, P.C.
2435 Kimberly Road, Suite 235 South
Bettendorf, Iowa 52722
(563) 326-4095

16
17
18
19
20
21
22
23
24
25

Jennifer E. Johnson, CSR, RMR, CRR
U.S. District Court Reporter
Central District of Illinois
Proceedings recorded by mechanical stenography;
transcript produced by computer
003a

158
1
2

financial matters.
So, I do find that the government has

3

established that the two-level role enhancement

4

under Chapter 3 is appropriate in this case, and

5

the objection is denied, and the Court adopts the

6

government's position.

7

Objection number seven.

This references

8

paragraphs 33, 36, and 53 and -- hold on -- I

9

believe this is application of the career offender

10

enhancements.

11

So, I'll entertain argument.

12

MR. BELL:

13

I'm together here.

14

THE COURT:

Just a second.

Let me make sure

You're relying on U.S. v. Liddell,

15

and this is in terms of the predicate offenses.

16

think your argument is that they share certain

17

characteristics that make them part of a common

18

scheme.

19

MR. BELL:

Well, we're taking the position --

20

we understand we're talking about the career

21

offender thing.

22

ruling.

23

so we're preserving the issue on whether he's a

24

career offender or not.

25

I

We understand the Ruth case made a

We don't believe they have the last word,

THE COURT:

I kind of read this -- wait.

004a

Let

159
1

me re-read it because I -- oh, I see.

2

on.

3

MR. BELL:

4

THE COURT:

Okay.

Hold

Yeah.
I see this as making two

5

arguments.

6

and that -- I'm sorry, yes, that Ruth got it wrong;

7

that the prior Illinois drug-related convictions

8

that U.S. v Ruth, on July 20th of this year, found

9

were overly broad for purposes of the statutory 851

The first one is that Ruth got it wrong

10

enhancement because of the different definition

11

used regarding prior predicate offenses in the

12

guidelines to determine career offender is

13

different, that it doesn't -- that ruling doesn't

14

extend to career offender.

15
16
17

So, do you have any further argument you wish,
or are you just preserving that argument?
MR. BELL:

We're preserving the issue because

18

there are defendants -- just like there is the

19

government -- who want to go further on this.

20

THE COURT:

21

MR. BELL:

Okay.
So, we're preserving the issue on

22

whether or not he's a career offender and that Ruth

23

got it wrong.

24
25

THE COURT:

Okay.

Anything -- I mean, I'm

noting the objection, but anything other than --

005a

160
1
2
3
4

MR. FRERES:

Court wants, but, yeah, Ruth -THE COURT:

MR. FRERES:

6

THE COURT:

7

MR. FRERES:

8

THE COURT:

10

I think he's got like a hybrid

objection here, so I --

5

9

I can address Liddell if the

Yes, I understand.
I mean, Ruth controls?
Yes.
You concede that, right?

You're

just preserving.
MR. BELL:

We accept that.

We understand

11

that.

12

be an application for cert to the Supreme Court

13

so --

14

But there's argument, and there's going to

THE COURT:

Sure.

So, as I read the first

15

part of 7A, your objection number 7 in the

16

addendum, U.S. v Ruth does control.

17

though your objection is noted for the record in

18

order to preserve the issue for appeal, the

19

objection is denied on that basis as career

20

offender is properly applied here, consistent with

21

the Ruth case.

And so even

22

I read a separate argument and challenge to

23

career offender into this objection, and that's

24

your reliance on Liddell because you're arguing

25

that there are similarities between two prior drug

006a

177
1

would have had it at that time, too.

2

THE COURT:

3

MR. BELL:

I'm sorry.

Could you --

I believe they were in the previous

4

presentence investigation report, so seven of them,

5

and he would have read them before he got sentenced

6

the first time, too.

7

THE COURT:

Okay.

Well, the reason I'm asking

8

is I need to know if there's any objections to them

9

and if he waives reading of the imposition of them

10
11

with the -- with the resolution.
So, I guess I'll just ask you, Mr. Atwood,

12

have you had sufficient time to review all of the

13

proposed conditions of supervised release?

14

THE DEFENDANT:

15

THE COURT:

16

And have I resolved any objections

you have to any of those conditions?

17

THE DEFENDANT:

18

THE COURT:

19

Yes, Your Honor.

And do you waive reading of the

imposition of those conditions in open court?

20

THE DEFENDANT:

21

THE COURT:

22

Yes, Your Honor.

Yes, Your Honor.

Okay.

And that's consistent with

your review of the PSR with your client, Mr. Bell?

23

MR. BELL:

24

THE COURT:

25

Having resolved -- you can return back.

Yes.
Okay.

Yes, Your Honor.
All right.

007a

Thank

178
1
2

you.
And again, as I stated in the text order that

3

I entered last week, the Court interprets the U.S.

4

v. Atwood Seventh Circuit's opinion that resulted

5

in this remand before a different sentencing judge

6

as a general remand where I have the discretion, as

7

I have here today, to consider any evidence and

8

arguments regardless of whether or not they were

9

presented at the original sentencing or not.

And

10

while I have no obligation, I think, to do so, I

11

made the decision and notified the parties in

12

advance that I would be determining my sentence

13

based on any new evidence or arguments that were

14

made, and that's consistent with what's happened so

15

far today and thus far in today's hearing.

16

Second, I want to advise the parties that I've

17

read everything, both from -- well, from the

18

beginning of this case.

19

times, including within the past 24 hours, all the

20

filings, all the letters, all the briefing that was

21

presented and, and the transcripts that were

22

contained in the docket before today.

23

I've reviewed multiple

And then also, as indicated in that -- I think

24

in that text order, that because of the application

25

of new law that came out in the Ruth case in

008a

179
1

between the remand and today's sentencing, that

2

changed the defendant's guideline range as a matter

3

of change in the law because Ruth, as the parties

4

are aware, I'm just -- before I get to pronouncing

5

the guideline range, I just want to make it clear

6

for the record that because of the decision in

7

Ruth, while the career offender application is

8

still appropriate as I've ruled today, based on the

9

two prior Illinois controlled substance convictions

10

that the defendant has in his past in terms of the

11

guidelines, they were actually changed -- the

12

guidelines were changed because of the impact of

13

the removal of any 851 statutory enhancement,

14

because he was charged in Counts I and II with

15

21 USC (b)(1)(C) offenses, both for the conspiracy

16

and the distribution, the statutory range was zero

17

to 20.

18

that raised it to 30.

19

-- drives in part the career offender guideline

20

range, your earlier range was higher, but now

21

you're well aware that it's lower because the 851

22

enhancement post-Ruth is no longer available to the

23

government, so now the statutory range goes back to

24

zero to 20, which impacts the application of the

25

career offender guideline which is now lower.

With the filing of the 851 enhancement,
Because the statutory cap is

009a

180
1

So, anyway, I just wanted to revisit all that

2

for the record and for the benefit of family

3

members because this is a lot of legal stuff.

4

So, having resolved all of the objections to

5

the eighth revised PSR, the total offense level is

6

29, and the Criminal History Category is VI.

7

statutory provision for Counts I and II each are

8

zero to 20 years in prison and Count III up to four

9

years in prison.

The

The advisory guideline range on

10

Counts I and II is 151 to 188 months.

11

48 months concurrent.

Count III is

12

Supervised release under the statute is three

13

years to life for Counts I and II and zero to one

14

years for Count III.

15

The advisory range for Counts I and II is the

16

minimum three years along with Count III the

17

maximum one year.

18

Probation under the statute is one to five

19

years per count.

20

eligible.

Under the guidelines, he's not

21

The fine -- is the government seeking a fine?

22

MR. FRERES:

23

THE COURT:

No, Your Honor.
Okay.

So, the advisory guideline

24

range fine is 30,000 to 2.2 -- $2,250,000, but due

25

to the defendant's incarcerated status and the

010a

181
1

posture of this case, I find that he's indigent,

2

and no fine will be imposed.

3
4
5

There's no restitution being sought in this
case.
And on Counts I, II and III, each of those

6

counts bears a $100 special assessment yielding a

7

total $300 special assessment.

8
9
10

Does the government concur with the Court's
recitation as to the applicable statutory and
guideline provisions?

11

MR. FRERES:

12

and accurately, yes.

Your Honor stated them very ably

13

THE COURT:

14

Mr. Bell, on behalf of Mr. Atwood, do you

Thank you.

15

concur with the Court's recitation as to the

16

provisions?

17
18

MR. BELL:

I agree that you've accurately

reflected what you've ruled on.

19

THE COURT:

20

The Court will adopt the eighth revised PSR

Okay.

Thank you.

21

and the addendum, and they'll be made part of the

22

record.

23

Other than what's already been presented here

24

today in court, does the government have any

25

additional evidence in aggravation that it wishes

011a

220
1
CERTIFICATE OF OFFICIAL REPORTER
2
3
4
5
6
7
8
9

I, Jennifer E. Johnson, CSR, RMR, CBC, CRR,
in and for the United States District Court for the
Central District of Illinois, do hereby certify
that pursuant to Section 753, Title 28, United
States Code that the foregoing is a true and
correct transcript of the stenographically reported
proceedings held in the above-entitled matter and
that the transcript page format is in conformance
with the regulations of the Judicial Conference of
the United States.
Dated this 16th day of October, 2020.

10
11
12

/s/ Jennifer E. Johnson
JENNIFER E. JOHNSON
CSR, RMR, CBC, CRR
License #084-003039

13
14
15
16
17
18
19
20
21
22
23
24
25

012a

United States v. Ruth, 966 F.3d 642 (2020)

Attorneys and Law Firms
KeyCite Yellow Flag - Negative Treatment
Disagreed With by United States v. Miller, M.D.Pa., August 19, 2020

966 F.3d 642
United States Court of Appeals, Seventh Circuit.

UNITED STATES of
America, Plaintiff-Appellee,
v.
Nathaniel RUTH, Defendant-Appellant.
No. 20-1034
|
Argued June 3, 2020
|
Decided July 20, 2020
Synopsis
Background: Defendant pled guilty in the United States
District Court for the Central District of Illinois, Michael M.
Mihm, Senior District Judge, to possession of firearm by felon
and possession of cocaine with intent to distribute, and he
appealed.

Holdings: The Court of Appeals, St. Eve, Circuit Judge, held
that:
defendant's Illinois conviction for possession with intent to
deliver cocaine was not predicate “felony drug offense”
within meaning of federal statute increasing mandatory
minimum sentence;
district court committed plain error as result of its
incorrect determination that defendant's Illinois conviction
was predicate “felony drug offense”, and
defendant's Illinois conviction was predicate “controlled
substance offense” under career offender sentencing
guideline.
Vacated and remanded.
*643 Appeal from the United States District Court for the
Central District of Illinois. No. 19-cr-20005 — Michael M.
Mihm, Judge.

Katherine Virginia Boyle, Attorney, Office of the United
States Attorney, Urbana Division, Urbana, IL, for Plaintiff Appellee
Johanes Maliza, Attorney, Office of the Federal Public
Defender, Springfield, IL, for Defendant - Appellant
Before Sykes, Chief Judge, and Bauer and St. Eve, Circuit
Judges.
Opinion
St. Eve, Circuit Judge.
In what is becoming an all-too-familiar subject, this appeal
raises a question about whether a state drug statute sweeps
more broadly than its federal counterpart because the former
includes a particular isomer of a substance that the latter
does not. Nathaniel Ruth pleaded guilty to federal *644
gun and drug charges and received an enhanced sentence due
to his prior Illinois conviction for possession with intent to
deliver cocaine. The Illinois statute defines cocaine to include
its positional isomers, whereas the federal definition covers
only cocaine's optical and geometric isomers. Ruth now
appeals and claims that the district court erred in sentencing
him because, using the categorical approach, the overbreadth
of the Illinois statute disqualifies his prior conviction as a
predicate felony drug offense. We agree and therefore vacate
Ruth's sentence and remand for resentencing.

I. Background
We can be brief in our summary of the facts because this
appeal raises challenges only to the application of sentencing
enhancements, which present pure questions of law. In
2018, the Champaign, Illinois police department's Street
Crime Task Force used a confidential source to conduct
multiple controlled buys of drugs from Nathaniel Ruth. That
investigation came to a head on December 5, 2018, when
officers surveilling Ruth pulled him over while driving and
arrested Ruth for driving with a revoked license. During the
arrest, Ruth told the officers that there was a firearm in the
vehicle. Officers subsequently executed a search warrant at
Ruth's residence and recovered 2.9 grams of crack cocaine,
5.6 grams of powder cocaine, a counterfeit $100 bill, $2,250
in U.S. currency, and various drug paraphernalia.

013a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

1

United States v. Ruth, 966 F.3d 642 (2020)

A grand jury indicted Ruth on two counts: one count of
possession of a firearm by a felon in violation of 18 U.S.C.
§ 922(g)(1), and one count of possession of cocaine with
intent to distribute in violation of 21 U.S.C. § 841(a)(1), (b)
(1)(C). The government then filed an information pursuant to
21 U.S.C. § 851 notifying Ruth that it intended to rely on a
prior conviction as a predicate felony drug offense to enhance
his sentence. Namely, the government intended to use a 2006
Illinois conviction for possession of a controlled substance
with intent to distribute, 720 ILCS 570/401(c)(2). The § 851
enhancement increased the statutory maximum sentence from
twenty years in prison to thirty years. See 21 U.S.C. § 841(b)
(1)(C). Ruth did not object to the government's § 851 notice.
After ironing out a defect in the indictment, Ruth eventually
pleaded guilty to both counts without a plea agreement. The
probation office determined that Ruth was a career offender
because at the time of the instant offenses, he had at least two
prior felony convictions for controlled substance offenses.
See U.S.S.G. § 4B1.1. One of the prior convictions was the
2006 Illinois cocaine conviction noted above and subject of
the § 851 enhancement, and the second was a 2010 Illinois
conviction for possession with intent to deliver cannabis.
Ruth's resulting Guidelines range was 188 to 235 months’
imprisonment.
Ruth objected to his classification as a career offender. He
argued that his 2006 Illinois conviction was not a “controlled
substance offense” under U.S.S.G. §§ 4B1.1(a) and 4B1.2(b)
because the Illinois statute he was convicted under, 720
ILCS 570/401(c)(2), is categorically broader than federal law
and thus could not serve as a predicate felony controlled
substance offense. Specifically, the Illinois statute prohibits
possession of positional isomers of cocaine whereas the
federal Controlled Substances Act does not. He similarly
argued that the Illinois statute's definition of cocaine “analog”
was categorically broader than the federal definition of a
controlled substance “analogue.” Despite his objections to
the career offender designation, Ruth did not object to the §
851 *645 sentencing enhancement based on the same 2006
Illinois conviction.
The government responded, primarily, that a plain reading
of the career-offender guideline covered both federal and
state definitions of controlled substance offenses. That is
because the Guidelines, for purposes of the career offender
enhancement, define a “controlled substance offense” as
“an offense under federal or state law, punishable by
imprisonment for a term exceeding one year, that prohibits ...

the possession of a controlled substance (or a counterfeit
substance) with intent to manufacture, import, export,
distribute, or dispense.” U.S.S.G. § 4B1.2(b) (emphasis
added). The government also disputed Ruth's arguments as to
the Illinois statute's divisibility and categorical breadth.
The district court agreed with the government “that the
wording of the guideline is such that I don't think the
analysis that defense counsel has made is the one that truly
applies” and overruled Ruth's objection to the career offender
enhancement. The court then sentenced Ruth to 108 months’
imprisonment on each of Count One and Count Two, to be
served concurrently. Ruth timely appealed.

II. Discussion
Ruth challenges his sentence on two related grounds—both
concerning his 2006 Illinois conviction for possession with
intent to deliver cocaine. First, Ruth argues that the district
court erred in applying the 21 U.S.C. § 851 sentencing
enhancement because his 2006 Illinois conviction does not
qualify as a prior “felony drug offense.” And second, Ruth
contends that the 2006 Illinois conviction is not a “controlled
substance offense” under the Sentencing Guidelines and thus
the court erroneously sentenced him as a career offender. As
to both, his argument is principally the same: the Illinois
statute is categorically broader than federal law. Though
Ruth is ultimately correct that the Illinois statute is broader
and thus he is entitled to be resentenced without the §
851 enhancement, he is wrong that this conclusion applies
equally to his Guidelines challenge to the career offender
enhancement.
A. Predicate Felony Drug Offense
Before sentencing, the government filed an information
pursuant to 21 U.S.C. § 851 notifying Ruth of its intent to rely
on his prior 2006 Illinois cocaine conviction as a qualifying
predicate “felony drug offense” to enhance his sentence. Ruth
did not object to the § 851 enhancement in the district court
and thus forfeited the argument. Our review is for plain error
only. Fed R. Crim. P. 52(b).
1. The categorical approach
Section 841(b)(1)(C), the applicable penalty provision for
Ruth's instant federal cocaine conviction, provides that if a
defendant has a “prior conviction for a felony drug offense,”
the statutory maximum term of imprisonment increases from

014a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

2

United States v. Ruth, 966 F.3d 642 (2020)

twenty years’ imprisonment to thirty years’ imprisonment. 21
U.S.C. § 841(b)(1)(C). As used in the Controlled Substances
Act, 21 U.S.C. § 801 et seq., the term “felony drug offense”
means:
an offense that is punishable by imprisonment for more
than one year under any law of the United States or of a
State or foreign country that prohibits or restricts conduct
relating to narcotic drugs, marihuana, anabolic steroids, or
depressant or stimulant substances.
21 U.S.C. § 802(44); cf. Burgess v. United States, 553 U.S.
124, 126, 128 S.Ct. 1572, 170 L.Ed.2d 478 (2008) (“The
term ‘felony drug offense’ contained in § 841(b)(1)(A)[ ] ...
is defined exclusively by *646 § 802(44)....”). Each of the
four categories of covered drugs is also separately defined in §
802. See 21 U.S.C. § 802(17) (defining “narcotic drugs”); id.
§ 802(16) (defining “marihuana”); id. § 802(41)(A) (defining
“anabolic steroid”); id. § 802(9) (defining “depressant or
stimulant substance”). Relevant to this appeal, cocaine is a
narcotic drug defined in § 802(17)(D), and is listed in the
schedules of federally controlled substances at schedule II(a)
(4), id. § 812.
To determine whether Ruth's prior Illinois conviction is a
“felony drug offense” within the meaning of federal law,
we apply the Taylor categorical approach. United States v.
Elder, 900 F.3d 491, 497–501 (7th Cir. 2018) (citing Taylor v.
United States, 495 U.S. 575, 110 S.Ct. 2143, 109 L.Ed.2d 607
(1990)). Under the categorical approach, courts look solely
to whether the elements of the crime of conviction match the
elements of the federal recidivism statute. Id. at 501. “If, and
only if, the elements of the state law mirror or are narrower
than the federal statute can the prior conviction qualify as a
predicate felony drug offense.” United States v. De La Torre,
940 F.3d 938, 948 (7th Cir. 2019).
The Supreme Court recently clarified its categorical-approach
jurisprudence in Shular v. United States, ––– U.S. ––––, 140
S. Ct. 779, 206 L.Ed.2d 81 (2020). There are “two categorical
methodologies,” depending on the statute at issue. Id. at 783,
140 S.Ct. 779. In the first categorical methodology, some
statutes require “the court to come up with a ‘generic’ version
of a crime—that is, the elements of ‘the offense as commonly
understood.’ ” Id. (quoting Mathis v. United States, ––– U.S.
––––, 136 S. Ct. 2243, 2247, 195 L.Ed.2d 604 (2016)). We
will refer to this first method as the generic-offense method.
The archetypal example is Taylor itself, which confronted
the Armed Career Criminal Act's “unadorned reference to
‘burglary’ ” and required the Court to “identif[y] the elements
of ‘generic burglary’ based on the ‘sense in which the term

is now used in the criminal codes of most States.’ ” Id.
(quoting Taylor, 495 U.S. at 598–99, 110 S.Ct. 2143). The
Court then matched the elements of the offense of conviction
against those of the generic crime. Id. The second categoricalapproach method, though, concerns statutes that do not
reference a certain offense, but rather “some other criterion”
as the measure for prior convictions. Id. The example given
for this second methodology was where an immigration
statute assigned consequences for a prior conviction for an
offense that “involves fraud or deceit,” and the Court simply
looked to whether the prior offense's elements “necessarily
entail fraudulent or deceitful conduct” as the appropriate
measure. Id. (quoting Kawashima v. Holder, 565 U.S. 478,
483–85, 132 S.Ct. 1166, 182 L.Ed.2d 1 (2012)). We will call
this second method the conduct-based method.
In Shular, the Court held that the second categorical
methodology—the conduct-based method—applies to
determining whether a state offense is a “serious drug
offense” under the Armed Career Criminal Act (ACCA), 18
U.S.C. § 924(e)(2)(A)(ii) (defining “serious drug offense”
as “an offense under State law, involving manufacturing,
distributing, or possessing with intent to manufacture or
distribute, a controlled substance”). The statute's text and
context convinced the Court that it undoubtedly described
conduct, not names of generic offenses. Shular, 140 S.
Ct. at 785. In contrast, ACCA's “violent felony” provision
refers to a crime that “is burglary, arson, or extortion,”
which unambiguously names offenses. Id. Therefore, a prior
conviction qualifies as a predicate “serious drug offense”
and triggers § 924(e)(2)(A)(ii)’s sentencing enhancement
when the predicate offense involved *647 “the conduct
of ‘manufacturing, distributing, or possessing with intent to
manufacture or distribute, a controlled substance.’ ” Id. at
787.
The conduct-based categorical approach applies here to §
841(b)(1)(C)’s sentencing enhancement. The term “felony
drug offense” describes predicate offenses “that prohibit[ ]
or restrict[ ] conduct relating to narcotic drugs, marihuana,
anabolic steroids, or depressant or stimulant substances.”
21 U.S.C. § 802(44) (emphasis added). This unquestionably
refers to conduct and not generic offenses. The task is
simple, then, and the court asks only whether the prior
conviction's elements necessarily entail the conduct identified
in § 802(44). Indeed, even before Shular’s clarification,
this court already implicitly employed the conduct-based
categorical methodology for similar “felony drug offense”
sentencing enhancements. See, e.g., United States v. Garcia,

015a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

3

United States v. Ruth, 966 F.3d 642 (2020)

948 F.3d 789, 793 (7th Cir. 2020); De La Torre, 940 F.3d at
949; Elder, 900 F.3d at 497.
Here the government filed an information pursuant to 21
U.S.C. § 851(a) identifying Ruth's prior state court conviction
under 720 ILCS 570/401(c)(2). The Illinois statute makes it
unlawful to possess with intent to deliver “1 gram or more but
less than 15 grams of any substance containing cocaine, or an
analog thereof.” 720 ILCS 570/401(c)(2). Illinois's schedule
of controlled substances defines cocaine as:
Coca leaves and any salt, compound, isomer, salt of an
isomer, derivative, or preparation of coca leaves including
cocaine or ecgonine, and any salt, compound, isomer,
derivative, or preparation thereof which is chemically
equivalent or identical with any of these substances, but
not including decocainized coca leaves or extractions of
coca leaves which do not contain cocaine or ecgonine (for
the purpose of this paragraph, the term “isomer” includes
optical, positional and geometric isomers)[.]
720 ILCS 570/206(b)(4). For our purposes, the critical
language is the final phrase—Illinois's definition of cocaine
includes optical, positional, and geometric isomers. Under
federal law, cocaine is defined to include only its “optical
and geometric isomers.” 21 U.S.C. § 812, Schedule II(a)(4);
see also id. § 802(14) (“As used in schedule II(a)(4), the
term ‘isomer’ means any optical or geometric isomer.”); id.
§ 802(17)(D) (defining “narcotic drug” to include “[c]ocaine,
its salts, optical and geometric isomers, and salts of isomers”).
On its face, then, the Illinois statute is categorically broader
than the federal definition.
Despite the statutory mismatch, the government responds that
the Illinois statute nonetheless “substantially corresponds” to
the federal statute and thus is not overbroad. The argument
finds its roots in Quarles v. United States, where the Supreme
Court admonished that “the Taylor Court cautioned courts
against seizing on modest state-law deviations from the
generic definition of burglary,” and held that the relevant
question there was whether the state law “ ‘substantially
corresponds’ to (or is narrower than) generic burglary.”
––– U.S. ––––, 139 S. Ct. 1872, 1880, 204 L.Ed.2d 200
(2019) (quoting Taylor, 495 U.S. at 602, 110 S.Ct. 2143).
But Quarles, like Taylor itself, involved the generic-offense
method of the categorical approach that, when the statute at
issue “refers generally to an offense without specifying its
elements,” requires a court as a preliminary step to “define the
offense so that it can compare elements, not labels.” Shular,
140 S. Ct. at 783. This process of the court coming up with
a generic version of a crime must allow for some margin of

inconsequential discrepancy. Post-Shular, however, it is clear
that looking *648 to whether the elements “substantially
correspond” falls within a different categorical approach
methodology and does not apply equally under the conductbased method at play here. There are no minor deviations in
offense elements to assess, only enumerated conduct.
Flowing from its reliance on the “substantial correspondence”
between the Illinois and federal statutes, the government
next argues that there is no basis to conclude that positional
isomers of cocaine exist in the drug trade. In support of
its assertion, during sentencing in the district court, the
government submitted an affidavit of a retired DEA research
chemist, John Casale. According to Agent Casale, during
his tenure at the DEA he analyzed over 50,000 cocaine
samples from law enforcement evidentiary seizures and did
not identify any positional isomers of cocaine in any of those
samples. This may be so, but Agent Casale does not actually
aver that positional isomers of cocaine do not exist. And
that is an important distinction. It is not the province of the
judiciary to rewrite Illinois's statute to conform to a supposed
practical understanding of the drug trade. This is particularly
true here where the Illinois legislature purposefully included
positional isomers of cocaine in its statute. Effective January
1, 1984, the legislature added the word “isomer” to the
definition of cocaine. People v. Godek, 138 Ill.App.3d
1083, 94 Ill.Dec. 53, 487 N.E.2d 810, 812 n.3 (Ill. 1986).
Shortly thereafter, the legislature again amended the statute to
expressly identify optical, positional, and geometric isomers,
as it appears today. See Act of Sept. 8, 1985, § 1, 1985
Ill. Laws 2288, 2292–93. Though the government would
have us believe that Illinois's inclusion of positional isomers
of cocaine is “nothing but spilled ink,” it was far from a
potential drafting oversight. Illinois went from generically
prohibiting “isomers” to expressly identifying the precise
types of cocaine isomers it sought to proscribe. We must give
effect to the law as written.
We encountered nearly identical facts and arguments in De
La Torre, save for the drug at issue being methamphetamine
and its isomers, and we reach the same outcome. 940 F.3d
at 950–52. Like there, the government offers theoretical
challenges to positional isomers of cocaine but cannot avoid
the inescapable conclusion that the plain language of the state
statute categorically covers a larger swath of conduct than
its federal counterpart. To be certain, in De La Torre we
noted that we took no position on the scientific merits of the
government's isomer-related arguments, nor do we here. Id.
at 952 n.5. Although we left the door ajar for future science

016a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

4

United States v. Ruth, 966 F.3d 642 (2020)

based arguments, it was not an open-ended invitation to argue
that every isomeric mismatch is mere surplusage. There may
be an occasion where a state statute covers unquestionably
nonexistent conduct, but we do not need to predetermine how
that analysis will look. It is enough for us to say that where,
as here, the state statute of conviction is plain and intentional,
our job is straightforward: we compare the state statute to the
federal recidivism statute at issue and ask only if the state law
is the same as or narrower than federal law.
2. Divisibility of 720 ILCS 570/401(c)(2)
Ruth is not quite out of the woods yet. Even if his state
statute of conviction is overbroad, the government urges that
it is divisible. A statute is divisible if it “sets out one or
more elements of the offense in the alternative.” Descamps
v. United States, 570 U.S. 254, 257, 133 S.Ct. 2276, 186
L.Ed.2d 438 (2013). If so, we can apply what has been dubbed
the modified categorical approach and “consult a limited
class of documents” to determine which *649 alternative
element of the statute formed the basis of Ruth's 2006 Illinois
conviction. Id.; Elder, 900 F.3d at 502. The documents that a
sentencing court may consult include the charging document,
jury instructions, a written plea agreement, the transcript of a
plea colloquy, or some comparable judicial record. Shepard v.
United States, 544 U.S. 13, 20, 125 S.Ct. 1254, 161 L.Ed.2d
205 (2005).
We start with the structure of the statute. Section 401, in
general, makes it “unlawful for any person knowingly to
manufacture or deliver, or possess with intent to manufacture
or deliver, a controlled substance ..., a counterfeit substance,
or a controlled substance analog.” 720 ILCS 570/401.
Subsections (a) through (i), and numerous subparts, then
proceed to set forth various controlled substances and
respective quantities that each constitute separate violations
of the Illinois Controlled Substances Act resulting in different
penalties. Subsection (c), in part, provides as follows:
(c) Any person who violates this Section with regard to the
following amounts of controlled or counterfeit substances
or controlled substance analogs, notwithstanding any of
the provisions of subsections (a), (b), (d), (e), (f), (g) or
(h) to the contrary, is guilty of a Class 1 felony. The fine
for violation of this subsection (c) shall not be more than
$250,000:
(1) 1 gram or more but less than 15 grams of any
substance containing heroin, or an analog thereof;

(1.5) 1 gram or more but less than 15 grams of any
substance containing fentanyl, or an analog thereof;
(2) 1 gram or more but less than 15 grams of any
substance containing cocaine, or an analog thereof;
(3) 10 grams or more but less than 15 grams of any
substance containing morphine, or an analog thereof;
...
(11) 50 grams or more but less than 200 grams of any
substance containing a substance classified in Schedules
I or II, or an analog thereof, which is not otherwise
included in this subsection.
720 ILCS 570/401(c).
We pause here, though, to take a step back and clarify the
relevant divisibility question. The government argues vaguely
that the “relevant subsection” of the Illinois Controlled
Substances Act is divisible. Though far from apparent, we
think the government suggests merely that subsection (c)
is divisible from the rest of section 401 overall. The text
makes clear that 720 ILCS 570/401 is generally divisible.
The provision has almost a dozen subsections and dozens
more subparts, each regulating different drugs in different
quantities. The government would have us stop there at this
topline divisibility and immediately examine Ruth's Shepardapproved documents to determine the specific conduct—or
here, substance—underlying Ruth's state court conviction.
General statute divisibility, however, is not enough. The
modified categorical approach is just that: a modification
of the categorical approach that simply acts as a “tool for
implementing the categorical approach.” Descamps, 570 U.S.
at 262, 133 S.Ct. 2276. “It retains the categorical approach's
central feature: a focus on the elements, rather than the facts,
of a crime.” Id. at 263, 133 S.Ct. 2276. To put it more
succinctly, the modified categorical approach helps a court
find out which crime the defendant was convicted of when
the statute lists several alternative crimes. Id. at 263–64, 133
S.Ct. 2276.
No one disputes that Ruth was convicted under subsection
(c)(2). So it does not matter for our purposes that the higher
*650 level subsections (a), (b), (c), and so on are divisible
from each other—we can place Ruth's conviction in the
more particular subdivision without recourse to any extrastatutory Shepard documents. The only question that matters,
then, is whether subsection (c)(2) is itself divisible. As we
alluded to above, the government does not appear to argue

017a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

5

United States v. Ruth, 966 F.3d 642 (2020)

that subsection (c)(2) is divisible, nor could it; the statutory
provision is clearly indivisible. Section 401(c)(2) lists only
one crime: possession with intent to distribute cocaine.
Though the Illinois statute may define cocaine overbroadly,
there is no uncertainty as to what statutory offense formed the
basis of Ruth's crime of conviction and our inquiry ends there.
Ruth's 2006 Illinois conviction under 720 ILCS 570/401(c)
(2) is not a predicate “felony drug offense” that triggers 21
U.S.C. § 841(b)(1)(C)’s sentencing enhancement.
3. Plain error
Because Ruth's 2006 Illinois conviction under 720 ILCS
570/401(c)(2) is not a predicate “felony drug offense” under
his applicable federal penalty statute, 21 U.S.C. § 841(b)
(1)(C), the district court erred in sentencing Ruth with
the statutory enhancement. To satisfy plain error review,
however, the error must have been plain and must have
affected Ruth's substantial rights before we will exercise our
discretion to correct it. See United States v. Olano, 507 U.S.
725, 732, 113 S.Ct. 1770, 123 L.Ed.2d 508 (1993). And
even then, we will exercise that discretion only if the error
“seriously affect[s] the fairness, integrity or public reputation
of judicial proceedings.” Id. at 736, 113 S.Ct. 1770 (quoting
United States v. Atkinson, 297 U.S. 157, 160, 56 S.Ct. 391, 80
L.Ed. 555 (1936)).
An error is plain if it is “clear or obvious, rather than subject
to reasonable dispute.” Puckett v. United States, 556 U.S.
129, 135, 129 S.Ct. 1423, 173 L.Ed.2d 266 (2009). That is
to say that “while the error must be straightforward, it can
be so in hindsight.” United States v. Caputo, 978 F.2d 972,
975 (7th Cir. 1992). The error must be plain, “but it needn't
be blatant.” Id. After all, “plain-error review is not a grading
system for trial judges.” Henderson v. United States, 568 U.S.
266, 278, 133 S.Ct. 1121, 185 L.Ed.2d 85 (2013). Though the
parties missed the argument, they did not miss the core issue.
Ruth objected to the career offender enhancement under the
Guidelines based on his 2006 Illinois conviction for the same
categorical-overbreadth reasons he now makes in relation to
the § 851 sentencing enhancement. That the precise issue and
arguments were raised shows that the error was clear. That no
one recognized the additional application of the objection to
his prior conviction does not render the error so imperceptible
as to except it from review.
The error here affected Ruth's substantial rights because the
enhancement increased his Guidelines range. Without the
§ 851 enhancement, Ruth's Guidelines range would have

been 151 to 188 months.1 The § 851 enhancement, which
raised the statutory maximum sentence and thus increased his
offense level, resulted in a higher Guidelines range of 188 to
235 months. Although the district court ultimately sentenced
Ruth to 108 months’ imprisonment, below either Guidelines
range, in the ordinary case the Guidelines range will “anchor
the court's discretion in selecting an appropriate sentence.”
Molina-Martinez v. United States, ––– U.S. ––––, 136 S. Ct.
1338, 1349, 194 L.Ed.2d 444 (2016). “It follows, then, that
in most cases the Guidelines range will affect the *651
sentence.” Id. “We have repeatedly held that ‘[a] sentencing
based on an incorrect Guidelines range constitutes plain error
and warrants a remand for resentencing, unless we have
reason to believe that the error in no way affected the district
court's selection of a particular sentence.’ ” United States v.
Martin, 692 F.3d 760, 766 (7th Cir. 2012) (quoting United
States v. Farmer, 543 F.3d 363, 375 (7th Cir. 2008)). There
is nothing in the sentencing transcript that would give us any
reason to believe that the increased Guidelines range did not
affect the district court's chosen sentence. “When a defendant
is sentenced under an incorrect Guidelines range—whether or
not the defendant's ultimate sentence falls within the correct
range—the error itself can, and most often will, be sufficient
to show a reasonable probability of a different outcome absent
the error.” Molina-Martinez, 136 S. Ct. at 1345. Because the
plain Guidelines error here risks an unnecessary deprivation
of Ruth's liberty, and given “the relative ease of correcting
the error,” Rosales-Mireles v. United States, ––– U.S. ––––,
138 S. Ct. 1897, 1908, 201 L.Ed.2d 376 (2018), leaving this
error uncorrected would undermine the “fairness, integrity or
public reputation of judicial proceedings.” Olano, 507 U.S.
at 736, 113 S.Ct. 1770. We therefore vacate Ruth's sentence
and remand.
B. Career Offender Enhancement
Ruth also contends that his 2006 Illinois conviction is not
a “controlled substance offense” under the Guidelines and
thus argues he was erroneously sentenced as a career offender
as well. Ruth objected to the career offender enhancement
at sentencing and preserved this challenge. Whether a prior
offense is a predicate controlled substance offense under the
Guidelines is a question of law that we review de novo. United
States v. Tate, 822 F.3d 370, 375 (7th Cir. 2016).
A defendant is a career offender if, among other requirements,
“the defendant has at least two prior felony convictions of
either a crime of violence or a controlled substance offense.”

018a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

6

United States v. Ruth, 966 F.3d 642 (2020)

U.S.S.G. § 4B1.1(a). As used in the career-offender guideline,
the term “controlled substance offense” is defined as:

compelling reason for us to now import the federal definition
of controlled substance on our own.

an offense under federal or state law, punishable by
imprisonment for a term exceeding one year, that prohibits
the manufacture, import, export, distribution, or dispensing
of a controlled substance (or a counterfeit substance) or
the possession of a controlled substance (or a counterfeit
substance) with intent to manufacture, import, export,
distribute, or dispense.
Id. § 4B1.2(b). The Guidelines do not further define
“controlled substance,” so Ruth's argument in this instance is
premised on incorporating the federal Controlled Substances
Act's definition of controlled substance (and its schedules of
enumerated substances) into the career-offender guideline.
See 21 U.S.C. § 802(6). Doing so would lead to the
same result we reached above—the Illinois statute covering
positional isomers of cocaine is broader than the federal
definition of cocaine and thus his 2006 conviction cannot
serve as a predicate controlled substance offense.

We addressed a similar question in United States v. Hudson,
whether, under the Sentencing Guidelines, crimes involving
phony versions of illegal drugs are properly characterized
as controlled substance offenses, and it guides us here. 618
F.3d 700, 701 (7th Cir. 2010). The defendant in that case
was convicted of possession of a firearm by a felon under 18
U.S.C. § 922(g) and was subject to a sentencing enhancement
under U.S.S.G. § 2K2.1(a)(4)(A) if he had a prior felony
conviction for a controlled substance offense. Id. at 702.
Section 2K2.1 of the Guidelines does not define “controlled
substance offense,” but instead takes the “meaning given
that term in § 4B1.2(b) and Application Note 1 of the
Commentary to § 4B1.2.” U.S.S.G. § 2K2.1 cmt. n.1.
Turning to § 4B1.2(b), we found that the “definition lays out
our guide-posts: controlled-substance offenses include statelaw offenses related to controlled or counterfeit substances
punishable by imprisonment for a term exceeding one year.”
Hudson, 618 F.3d at 703. But Hudson “was convicted of
an Indiana offense related to a substance masquerading as
a controlled substance, not under Indiana's law addressing
counterfeit substances.” Id. So it was not clear whether
his prior conviction was an offense related to “counterfeit
substances.” The guideline does not define “counterfeit
substance,” however, and we saw no reason to restrict the
definition “to a particular state's concept of what is meant by
that term.” Id. Instead, we looked more broadly to how the
term is commonly understood and gave it its natural meaning.
Id.

The fatal flaw in Ruth's logic is that the career-offender
guideline, and its definition of controlled substance offense,
does not incorporate, cross-reference, or in any way refer
to the Controlled Substances Act. This is significant.
The Sentencing Commission clearly knows how to crossreference federal statutory definitions when it wants to.
Indeed, in the very same definitional section for the careeroffender guideline, the Commission defined “crime of
violence” to incorporate the definition of *652 firearm from
26 U.S.C. § 5845(a) and “explosive material as defined in
18 U.S.C. § 841(c).” U.S.S.G. § 4B1.2(a)(2). Elsewhere, §
2D1.1 of the Guidelines expressly provides that it applies to
“ ‘counterfeit’ substances, which are defined in 21 U.S.C.
§ 802,” and tells us that “ ‘analogue,’ for purposes of
this guideline, has the meaning given the term ‘controlled
substance analogue’ in 21 U.S.C. § 802(32).” U.S.S.G. §
2D1.1 cmt. nn.4 & 6. Yet, no such signal is anywhere
in the career-offender guideline's definition for controlled
substance offense. What is perhaps even more telling,
when the Guidelines were first introduced, the Sentencing
Commission defined the term “controlled substance offense”
in the career offender provision to mean “an offense identified
in 21 U.S.C. §§ 841, 952(a), 955, 955a, 959; §§ 405B and
416 of the Controlled Substance Act as amended in 1986,
and similar offenses.” U.S.S.G. § 4B1.2(2) (1987). Shortly
thereafter, the Commission amended the definition to what is
substantially, and substantively, its current form, without any
cross-references. See id. § 4B1.2(2) (1989). Ruth offers no

Notwithstanding our conclusion in Hudson, Ruth instead
points to our decision in United States v. Smith, 921 F.3d
708 (7th Cir. 2019), and asserts that we have already
agreed with his reading of the Guidelines. In Smith, the
defendant challenged whether “his conviction under Indiana's
‘Dealing in cocaine or narcotic drug’ statute, Ind. Code §
35-48-4-1, is ... a predicate controlled substance offense under
§ 4B1.2(b) of the Guidelines.” Id. at 712. Though Smith
applied the categorical approach to determine whether the
elements of his prior conviction matched the generic version
of the offense, we said nothing about incorporating the
federal Controlled Substances Act's definition of “controlled
substance” into the Guidelines. Rather, we were primarily
concerned with whether the elements of the Indiana crime
“match the Guidelines’ definition of a controlled substance:
(1) possession (2) of a controlled substance (3) with the intent
to *653 distribute that substance.” Id. at 715–16. As to that,

019a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

7

United States v. Ruth, 966 F.3d 642 (2020)

we found the elements easily matched. But in Smith we did
not have the occasion to consider the question before us now.
We recognize that a circuit split exists on this issue, and
that the weight of authority favors Ruth. As far as we are
aware, the Second, Fifth, Eighth, and Ninth Circuits have all
concluded that “controlled substance” in U.S.S.G. § 4B1.2(b)
refers to the federal definition. Most recently, the Second
Circuit applied the so-called Jerome presumption that as a
general rule “the application of a federal law does not depend
on state law unless Congress plainly indicates otherwise.”
United States v. Townsend, 897 F.3d 66, 71 (2d Cir. 2018)
(citing Jerome v. United States, 318 U.S. 101, 104, 63 S.Ct.
483, 87 L.Ed. 640 (1943)). The court also found that Taylor
and the Supreme Court's subsequent categorical-approach
cases “reinforce the idea that imposing a federal sentencing
enhancement under the Guidelines requires something more
than a conviction based on a state's determination that
a given substance should be controlled.” Id. For those
reasons, the Second Circuit was “confident that federal law
is the interpretive anchor to resolve the ambiguity” over the
definition of “controlled substance offense.” Id. “Any other
outcome would allow the Guidelines enhancement to turn on
whatever substance ‘is illegal under the particular law of the
State where the defendant was convicted,’ a clear departure
from Jerome and its progeny.” Id.
Our colleagues on the Fifth, Eighth, and Ninth Circuits all
considered a different provision of the Guidelines and a
different term, but applied the same basic reasoning. The
Ninth Circuit held that the meaning of “drug trafficking
offense” under U.S.S.G. § 2L1.2 “should not ‘depend on
the definition adopted by the State of conviction’ ” because
it would be inconsistent with the principles underlying the
Taylor categorical approach. United States v. Leal-Vega, 680
F.3d 1160, 1166 (9th Cir. 2012); see also United States v.
Gomez-Alvarez, 781 F.3d 787, 793 (5th Cir. 2015) (adopting
reasoning of Leal-Vega for same guideline provision); United
States v. Sanchez-Garcia, 642 F.3d 658, 661 (8th Cir.
2011) (interpreting same guideline provision and using the
federal Controlled Substances Act definition of “controlled
substance”).
On the other side of the ledger are the Sixth and Eleventh
Circuits—albeit in unpublished opinions only. The Sixth
Circuit first addressed the issue in United States v. Smith,
where the defendant “argue[d] that because the list of
controlled substances criminalized under Illinois law [720
ILCS 570/401] includes a substance that is not prohibited

under federal law, his prior convictions cannot serve as
predicate controlled-substance offenses.” 681 F. App'x 483,
488 (6th Cir. 2017). The Sixth Circuit disagreed:
[B]ecause the Guidelines specifically include offenses
under state law in § 4B1.2, the fact that Illinois may have
criminalized the ‘manufacture, import, export, distribution,
or dispensing’ of some substances that are not criminalized
under federal law does not prevent conduct prohibited
under the Illinois statute from qualifying, categorically, as
a predicate offense. Smith's prior convictions under 720 Ill.
Comp. Stat. § 570/401(d) thus are predicate offenses.
Id. at 489. Simply, “there is no requirement that the particular
controlled substance underlying a state conviction also be
controlled by the federal government.” Id. In a subsequent
opinion, the Sixth Circuit reiterated Smith’s holding and
added that “[i]n crafting the federal sentencing Guidelines
and substantive federal criminal *654 laws, Congress was
well aware of the significant variations that existed in state
criminal law.” United States v. Whitfield, 726 F. App'x 373,
376 (6th Cir. 2018). But see United States v. Pittman, 736
F. App'x 551, 553 (6th Cir. 2018) (defining “controlled
substance” in U.S.S.G. § 4B1.2(b) by reference to the
Controlled Substance Act, 21 U.S.C. § 802(6), without citing
Smith or otherwise providing any analysis or reasoning).
And just recently, the Sixth Circuit recognized the circuit
split on this question but explicitly “decline[d] to adopt the
reasoning embraced by our sister circuits” in Townsend, LealVega, and Sanchez-Garcia. United States v. Sheffey, 818 F.
App'x 513, 520–21 (6th Cir. June 29, 2020). Instead, the court
continued to embrace Smith’s reasoning and held that “the
career offender enhancement ... does not limit its definition
of controlled substance offense to specific federal violations.”
Id. We think that the Sixth and Eleventh Circuits have the
better take of the issue.
But we are not joining a side today; we have already staked
out our position in Hudson. Granted, in Leal-Vega, the Ninth
Circuit distinguished the reasoning of our Hudson decision
as to the term “counterfeit substance” because “[t]he word
‘counterfeit’ has a normal, everyday meaning that we all
understand,” whereas “[t]he same is not true of the word
‘controlled.’ ” Leal-Vega, 680 F.3d at 1166–67. “While the
word ‘controlled’ may have a plain and ordinary meaning,
whether a substance is ‘controlled’ must, of necessity, be
tethered to some state, federal, or local law in a way that
is not true of the definition of ‘counterfeit.’ ” Id. at 1167.
But none of the reasoning in Hudson turned on the specific
word “counterfeit” having some sort of special independent,
everyday meaning that sets it apart from other words. Indeed,

020a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

8

United States v. Ruth, 966 F.3d 642 (2020)

that seems to draw an arbitrary line between how we interpret
one term versus another term in the very same definition.
We see no textual basis to engraft the federal Controlled
Substances Act's definition of “controlled substance” into the
career-offender guideline.
The career-offender guideline defines the term controlled
substance offense broadly, and the definition is most plainly
read to “include state-law offenses related to controlled or
counterfeit substances punishable by imprisonment for a term
exceeding one year.” Hudson, 618 F.3d at 703. A controlled
substance is generally understood to be “any of a category
of behavior-altering or addictive drugs, as heroin or cocaine,
whose possession and use are restricted by law.” Controlled
substance, The Random House Dictionary of the English
Language (2d ed. 1987). Given the natural meaning of a
controlled substance, Ruth's 2006 cocaine conviction under

Illinois law is a controlled substance offense according to the
career-offender guideline.

III. Conclusion
Although the district court properly sentenced Ruth as a
career offender, his Guidelines range was further elevated due
to the increase in his statutory maximum sentence as a result
of the erroneous § 851 sentencing enhancement. Because the
district court calculated an incorrect Guidelines range, we
VACATE Ruth's sentence and REMAND to the district court
for resentencing.
All Citations
966 F.3d 642

Footnotes

1

This includes the career offender enhancement.

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

021a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

9

